March 18, 2003
Audit Report No. 03-019


The Division of Supervision and
Consumer Protection's Examination
Assessment of Subprime Lending
       THE DIVISION OF SUPERVISION AND CONSUMER PROTECTION'S
            EXAMINATION ASSESSMENT OF SUBPRIME LENDING

                              TABLE OF CONTENTS


BACKGROUND                                                        1
RESULTS OF AUDIT                                                  6
CORPORATION COMMENTS AND OIG EVALUATION                           6

APPENDIX I:     OBJECTIVE, SCOPE, AND METHODOLOGY                 8

APPENDIX II:    DSC’S ASSESSMENT, IDENTIFICATION, AND
                MONITORING OF BANKS WITH SUBPRIME
                LENDING PROGRAMS                                 12

APPENDIX III: REVIEWS OF CUSTOM CREDIT SCORING MODELS            19

APPENDIX IV: SUBPRIME LENDING POLICIES AND PROCEDURES            23

APPENDIX V:     LAWS AND REGULATIONS RELATED TO SUBPRIME
                LENDING                                          27

APPENDIX VI: OFFSITE MONITORING PROGRAMS                         29

APPENDIX VII: CORPORATION COMMENTS                               31

TABLES
     Table 1: FDIC-Insured Institutions with Subprime Exposure    4
     Table 2: Offsite Risk Evaluations                           17
Federal Deposit Insurance Corporation                                                                        Office of Audits
Washington, D.C. 20434                                                                          Office of Inspector General


   DATE:                              March 18, 2003

   MEMORANDUM TO:                     Michael J. Zamorski, Director
                                      Division of Supervision and Consumer Protection




   SUBJECT:                           The Division of Supervision and Consumer Protection's
                                      Examination Assessment of Subprime Lending
                                      (Audit Report No. 03-019)

   The Federal Deposit Insurance Corporation’s (FDIC) Office of Inspector General has completed
   an audit of the Division of Supervision and Consumer Protection's (DSC) assessment of
   subprime lending 1 in the course of safety and soundness examinations. Our objective was to
   determine whether DSC has taken reasonable steps to ensure that institutions: (1) manage risks
   associated with subprime lending programs effectively and price loans based on risk,
   (2) establish adequate allowance levels to cover losses, and (3) maintain capital levels that reflect
   the additional inherent risks associated with subprime lending. We conducted this audit because
   of concerns stemming from recent financial institution failures involving subprime lending
   activities. Additional information on the objective, scope, and methodology is contained in
   Appendix I.

   BACKGROUND

   As early as 1997, regulators were cautioning financial institutions regarding the potential risk
   associated with subprime lending. Subprime lending provides a credit source to borrowers that may
   not otherwise be available due to concerns with borrowers' credit history or repayment capacity.
   Financial institutions generally price subprime loans commensurate with the added risk and should
   consider this risk in establishing all reserves for loan losses and capital levels. Financial Institution
   Letter (FIL) # 44-97, dated May 2, 1997, entitled Risks Associated with Subprime Lending, discusses
   the fact that recent examinations revealed a number of financial institutions that were engaged in
   subprime lending activities without properly assessing or controlling the risks associated with this

   1
     The Federal Financial Institutions Examination Council (FFIEC) 1999 Interagency Guidelines for Subprime
   Lending define the term "subprime lending" as extending credit to borrowers who exhibit characteristics indicating a
   significantly higher risk of default than traditional bank lending customers. The FFIEC was established by the
   Congress to promote improved and consistent examination and supervision policies and procedures among the five
   financial institution regulatory agencies. The FFIEC includes representatives of the Federal Deposit Insurance
   Corporation, Board of Governors of the Federal Reserve System (FRB), Office of the Comptroller of the Currency
   (OCC), Office of Thrift Supervision (OTS), and National Credit Union Administration (NCUA).
type of lending. As a result, many institutions have suffered losses, which in turn has jeopardized
the overall financial health of those institutions. According to the FIL, banks typically get involved
with subprime lending in the following areas:

         - Lending directly to subprime borrowers,
         - Purchasing subprime dealer paper2 or loans acquired through brokers,
         - Lending directly to financing companies involved with subprime lending,
         - Participating in loan syndications 3 providing credit to such financing companies, and
         - Acquiring asset-backed securities 4 issued by these financing companies.

Although FDIC-insured institutions with significant subprime asset exposures 5 represent less
than 2 percent of all FDIC-insured institutions, subprime activities contributed to 10 of 31
failures and 90 percent of insurance losses during the past 5 years. 6 The subprime market is
attractive to lenders because of the high loan yields and servicing 7 fee income generated by this
type of lending; however, the higher costs associated with servicing and collecting on subprime
borrowers can erode earnings as delinquencies rise. According to the FDIC Division of
Insurance and Research (DIR), 8 subprime loans originated in 2000 have thus far exhibited higher
and faster-rising charge-off rates than similarly-aged loans. Also, losses associated with higher
default rates are associated with subprime lending. FIL # 44-97 also identified the controls that
help mitigate these risks, including the requirement that, "Effective lenders must appropriately
stratify the additional default risk and price the subprime products accordingly. This requires
constant monitoring and testing of credit scoring models to ensure that projected results are in
line with actual performance."


2
  The American Bankers Association’s Banking & Finance Terminology defines dealer paper as "An arrangement
made by a bank to purchase loans from a dealer who sells automobiles or other durable goods to the public.
Customers purchase from the dealer on credit, the dealer sells the loan to the banks, and the dealer's customers
effectively become borrowers of the banks."
3
  The American Bankers Association’s Banking & Finance Terminology defines syndications as "Loans made by a
group of banks to one borrower. In most cases the dollar amount requested exceeds the amount that the individual
banks are willing or able to lend. Each bank receives a pro rata share of the income based on its level of
participation in the credit."
4
  According to the American Bankers Association’s Banking & Finance Terminology, asset-backed securities are
"Securities that have promised interest and principal payments that are backed by cash flows from an asset or
portfolio of assets that generate the cash flows."
5
  According to the FDIC Division of Insurance and Research Briefing Notes dated September 30, 2002, "Subprime
assets include residential or other consumer credits to individuals with limited or blemished credit histories,
residential mortgages with high loan-to-value (LTV) ratios, payday loans, or residual interests in securitized
subprime loans. Only insured institutions with subprime assets equal to at least 25 percent of Tier 1 Capital are
included in this analysis."
6
  According to the FDIC Division of Insurance and Research Briefing Notes dated September 30, 2002, "Poor bank
management, weak internal controls, and fraud often magnified losses to the insurance fund."
7
  According to the American Bankers Association’s Banking & Finance Terminology, "Servicing of mortgage loans,
credit card receivables, or other financial assets includes, but is not limited to, collecting principal, interest, and
escrow payments from borrowers; paying taxes and insurance from escrowed funds; monitoring delinquencies;
executing foreclosure if necessary; temporarily investing funds pending distribution; remitting fees to guarantors,
trustees, and others providing services; and accounting for and remitting principal and interest payments to the
holders of beneficial interests in the financial assets."
8
  The FDIC Division of Insurance and Research (DIR) was established on June 30, 2002, as a result of the merger
of the Division of Insurance (DOI) and the Division of Research and Statistics (DRS).


                                                          2
In March 1999, the FFIEC issued the Interagency Guidelines on Subprime Lending. The
guidelines defined subprime lending and required regulators to evaluate the related capital levels
at examinations. 9 In January 2001, the FFIEC issued Expanded Guidance for Evaluating
Subprime Lending Programs (Expanded Guidance). This Expanded Guidance supplements the
FFIEC guidelines issued in March 1999 and is specifically tailored to institutions that have
subprime lending programs with an aggregate credit exposure greater than or equal to 25 percent
of Tier 1 Capital. 10 In addition, the Expanded Guidance refines the definition of subprime
lending and clarifies the agencies' expectations regarding an institution's risk management
processes and provides a more detailed discussion of the supervisory expectations for
examinations of subprime lending programs.

DIR's April 2002 semiannual report on economic conditions and emerging risks in banking notes
that one of the four main risks to FDIC-insured institutions is the risk of subprime lending. 11
According to the report, the single most likely source of significant insurance losses related to
the failure of FDIC-insured institutions in the near-term is subprime consumer lending.
According to DIR, the problems with subprime lenders have not been simply the result of higher
than expected loan losses but the tendency for the credit models used by subprime lenders to
underpredict actual losses. On April 1, 2002, the FDIC Financial Risk Committee 12 issued a
report stating that subprime lenders and other banks with riskier business models continue to
make up a disproportionate share of problem banks.

The FDIC estimated that as of June 30, 2002, 128 FDIC-insured institutions (1.35 percent of all
insured institutions) had significant holdings of subprime assets (see Table 1 below). As of that
same date, 9,464 FDIC-insured institutions had $8.037 trillion in total assets, with $66.2 billion
in subprime assets at the 128 institutions with exposure in subprime lending; however, a much
larger percentage of institutions may have more limited involvement in this type of lending.


9
  The Federal Deposit Insurance Act Section 10 (d) requires the appropriate federal banking agency to conduct annual
full-scope on-site examinations of each insured depository institution.
10
   DSC’s Manual of Examination Policies provides a definition of Tier 1 Capital as “the sum of:
     • common stockholders' equity (common stock and related surplus, undivided profits, disclosed capital
          reserves, foreign currency translation adjustments, less net unrealized losses on available-for-sale equity
          securities with readily determinable fair values);
     • noncumulative perpetual preferred stock;
     • minority interests in consolidated subsidiaries;
          minus
     • all intangible assets (other than limited amounts of mortgage servicing rights and purchased credit card
          relationships and certain grandfathered supervisory goodwill);
     • identified losses (to the extent that Tier 1 Capital would have been reduced if the appropriate accounting
          entries to reflect the identified losses had been recorded on the institution's books);
     • investments in securities subsidiaries subject to section 337.4; and
     • deferred tax assets in excess of the limit set forth in section 325.5(g).”
11
   The other emerging risks identified by DIR were: (1) accounting transparency for off-balance sheet entities and its
effect on risk assessment, (2) interest rate sensitivity of specialized mortgage lenders, and (3) commercial lending in
formerly fast-growing metropolitan areas.
 12
    According to the FDIC Division of Insurance and Research, the function of the FDIC Financial Risk Committee
 (FRC) is to bring together representatives from various FDIC divisions and offices to determine and discuss the risk
 exposure to the deposit insurance funds and the probability of bank failures. The mission of the FRC is to ensure
 that the contingent loss reserve adequately reflects risk to the insurance funds.


                                                          3
Table 1: FDIC-Insured Institutions with Subprime Exposure

                                                   AS OF             AS OF           AS OF             AS OF
                                                 09/30/2001        12/31/2001      03/31/2002        06/30/2002
 # of Institutions with Exposure in
                   a                                 125               128             128               128
 Subprime Loans
 Total Dollar Amount of Subprime Assets
                                                $80.6 Billion      $70.8 Billion   $71.2 Billion    $66.2 Billion
 Held

Source: DSC Internal Supervisory Database Reports13
a
  Institutions in which subprime loans constitute 25% or more of Tier 1 Capital.

According to the DIR September 2002 Briefing Notes on Subprime Lending, the financial
condition of the nation’s 128 insured subprime lenders deteriorated through mid-year 2002 as
losses escalated and several composite examination ratings 14 were downgraded. According to
the Briefing Notes, a worsening employment picture, relatively high consumer debt burdens, and
record bankruptcy levels adversely affected subprime loan quality through 2001 and early 2002.
Also, heightened corporate layoffs pushed the national unemployment rate to 5.7 percent in
August 2002, from 5.5 percent in February 2002. Bankruptcy filing rates continued to climb
through mid-2002, and the second quarter 2002 personal bankruptcy filing rate was at a 10-year
high.

Subprime Mortgage Lending

In September 2002, DIR reported that increased foreclosure activity and higher subprime
residential mortgage delinquencies had hampered credit quality among subprime mortgage
lenders. Twenty-one (41 percent) of the 51 FDIC-supervised insured institutions that held
subprime loan exposures exceeding 25 percent of Tier 1 Capital as of mid-2002 had composite
ratings of 3, 4, or 5. As of June 2002, the median 1-4 family residential loan delinquency ratio
among subprime mortgage lenders was 2.43 percent, roughly 1.5 times the ratio reported by
prime retail institutions. 15 The FDIC has also reported that most subprime mortgage lenders




13
   According to DSC, the Internal Supervisory Database report is a confidential supervisory document and thus is
not available to the public.
14
   The FDIC DSC Manual of Examination Policies defines a composite examination rating as an overall rating given
to a bank based on the 6 components of the CAMELS rating. Financial institution regulators use the Uniform
Financial Institution Rating System to evaluate a bank's performance. The performance areas identified by the
CAMELS acronym are Capital Adequacy, Asset Quality, Management, Earnings, Liquidity, and Sensitivity to
Market Risk. A rating of 1 through 5 is given, with 1 having the least regulatory concern and 5 having the greatest
concern.
15
   According to the DIR September 2002 Subprime Briefing Notes, prime retail institutions are defined as insured
institutions with 1-4 family real estate and consumer loans exceeding 25 percent of capital that are not in the DSC
Internal Supervisory Database.


                                                           4
experienced decelerating mortgage loan growth during the recent recession, 16 which could
translate into higher delinquency and loss rates prospectively. In general, compared with
mortgages underwritten between 1996 and 2002, subprime first mortgages and home equity
loans originated in 2002 experienced higher, early-stage delinquencies.

According to DIR's First Quarter 2002 Regional Outlook Report, subprime lenders face an
increased risk of default due to the potential inability of subprime borrowers to repay their
mortgages on a timely basis. The report also states that the FDIC estimates that fewer than
1 percent of all insured institutions have significant subprime residential mortgage exposures.
Nevertheless, a much larger number of institutions probably have some limited involvement in
subprime mortgage lending. The future impact will be determined based on the risk in the
bank’s loan portfolios, their management of this risk, and the continuance of the recessionary
period. The subprime mortgage market has not been through a full recessionary cycle; therefore,
the repercussions from this type of lending are still unknown.

Subprime Consumer Lending

In its September 2002 Subprime Briefing Notes, DIR reported that performance measures have
deteriorated among insured institutions that have subprime consumer loans . 17 The median
consumer loan delinquency ratio reported by all subprime lenders was 3.5 percent, over 1.5 times
the level reported by prime retail institutions. Although past-due consumer loan ratios
moderated among subprime lenders during the first half of 2002, consumer loan losses rose
dramatically, and consumer loan growth slowed. According to DIR, slower loan growth might
have contributed to loss trends and could magnify delinquency and loss ratios as loan portfolios
age. As of September 30, 2002, the nation’s 20 subprime credit card lenders 18 reported
especially high consumer loan delinquencies and charge-offs. For these institutions, the median
ratio of delinquent credit cards was 11.9 percent at mid-year 2002, which is more than 3.5 times
the median delinquency rate reported by all non-subprime insured institutions with credit card-
to-Tier 1 Capital ratios exceeding 25 percent. Although the delinquency rate increased only
slightly, the median net credit card loss ratio among subprime credit card lenders almost doubled,
rising from 8.5 percent in June 2001, to 16.1 percent in June 2002.




16
   According to DIR the U.S. economy officially entered a recession in March 2001. The DIR December 2001
Briefing Notes on the U.S. Economy states that: (1) real gross domestic products (GDP) fell 1.3 percent in the third
quarter of 2001, for the first time since early 1993; (2) in the aftermath of the September 11 attacks, growth in
consumer spending slowed considerably, and personal consumption expenditures grew by an annualized 1.0 percent
in the third quarter, down from a 2.5 percent growth a quarter earlier; (3) business investment continued to fall
throughout the year, and nonresidential fixed investment fell by an annualized 8.5 percent in the third quarter,
following a 14.6 percent decline in the second quarter; and (4) businesses continue to cut inventories as they face
weaker demand, while private inventories shrank by $61.7 billion in the third quarter.
17
   According to the DIR September 2002 Subprime Briefing Notes, consumer loans include credit cards, automobile
loans, and other loans to individuals not secured by real estate.
18
   According to the DIR September 2002 Subprime Briefing Notes, subprime credit card lenders include insured
institutions with subprime credit card loans-to-Tier 1 Capital ratios exceeding 25 percent.


                                                         5
RESULTS OF AUDIT

DSC has taken reasonable steps to ensure that institutions: (1) manage risks associated with
subprime lending programs effectively and price loans based on risk, (2) establish adequate
allowance levels to cover losses, and (3) maintain capital levels that reflect the additional
inherent risks associated with subprime lending. Specifically, the interagency policies and
procedures for examinations of subprime banks provided examiners with the necessary guidance
to identify and assess the condition of subprime loan programs in insured institutions and the
examiners adequately implemented them. The procedures specifically address the management
of risk associated with subprime programs, stress the need for banks' risk management programs
to address loan pricing, and set forth the requirements for calculating and maintaining adequate
allowances for loan and lease losses (ALLL) and capital levels. FDIC examiners conducted pre-
examination planning that included steps to look for indications of subprime programs and
generally followed the interagency subprime examination procedures involving examinations of
capital levels during onsite examinations. In addition, DSC maintains a quarterly database to
assist in monitoring the condition of FDIC-insured institutions with subprime programs. Further,
examiners noted that institutions had implemented corrective actions as a result of DSC
examination findings related to the banks' subprime lending activities, including requirements for
maintaining adequate levels of capital and adequate allowances to cover losses. (See Appendix
II: DSC's Assessment, Identification, and Monitoring of Banks with Subprime Lending
Programs.)

During the course of our audit, we identified one issue that may warrant management's attention.
Specifically, existing guidance may not be sufficient for ensuring that custom credit scoring
models 19 correctly predict the creditworthiness of borrowers. As a result, there is a potential for
a lack of consistency in onsite examinations of banks with subprime lending programs,
particularly with regard to allowances for losses and capital level calculations. Also, in order for
lenders to appropriately stratify the additional default risk and price the subprime products
accordingly, constant monitoring and testing of credit scoring models is required to ensure that
projected results are in line with actual performance. (See Appendix III: Reviews of Custom
Credit Scoring Models.)

CORPORATION COMMENTS AND OIG EVALUATION

On March 10, 2003, the Director, Division of Supervision and Consumer Protection (DSC)
provided a written response to the draft report. The response is presented in Appendix VII of
this report. In reference to our observation related to procedures for reviews of custom credit
scoring models, DSC management stated that the FDIC plans to offer additional training on the
topic of custom credit scoring for a select group of specialists.




19
  The American Bankers Association’s Banking & Finance Terminology defines a custom credit scoring model as a
custom-built statistical analysis model used by banks to estimate the credit worthiness of credit applicants.




                                                     6
In addition, during the draft report phase of the audit, DSC requested that certain sensitive
information in the draft report be deleted because of references to other regulators' subprime
banks. We have done so, and deleting the information did not materially affect the report.




                                                 7
                                                                                     APPENDIX I

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The purpose of the audit was to review the Division of Supervision and Consumer Protection's
(DSC) process for assessing subprime lending risks during safety and soundness examinations.
Our specific objective was to determine whether DSC takes reasonable steps to ensure that
institutions:

   -   manage risks associated with subprime lending programs effectively and price loans
       based on risk,

   -   establish adequate allowance levels to cover losses, and

   -   maintain capital levels that reflect the additional inherent risks associated with subprime
       lending.

In order to accomplish our objective related to how subprime lending risk is addressed, we
reviewed DSC's processes for:

   -   identifying banks' risks associated with subprime lending and conducting examinations of
       banks with subprime loan programs,

   -   monitoring and tracking the conditions of the banks' subprime loan programs between
       examinations, and

   -   implementing corrective actions when weaknesses are identified in banks' subprime loan
       programs.

Scope and Methodology

The audit was conducted from March 21, 2002 through December 9, 2002, in accordance with
generally accepted government auditing standards. The scope of the audit included a sample of
FDIC-supervised banks identified as subprime lenders as of December 2001. In addition, our
audit tested adherence to the following subprime related criteria:

   -   Interagency Guidelines on Subprime Lending (March 1999)
   -   Expanded Guidance for Evaluating Subprime Lending Programs (January 2001)
   -   Examination Documentation (ED) Module for Subprime Lending (July 2001)

To accomplish our objective, we reviewed subprime related policies, procedures, laws, and
regulations, and identified related DSC and corporate performance goals and results. We also
reviewed DSC management and tracking reports and reviewed DSC headquarters and regional
office files and field office workpapers for a sample of subprime banks. In addition, we
interviewed DSC and DIR headquarters staff, Assistant Regional Directors (ARDs), Case


                                                8
Managers, and Examiners-in-Charge responsible for the supervision of the sample banks. The
audit team also attended the Federal Financial Institutions Examination Council (FFIEC)
Supervisory Update: Credit Scoring and Subprime Lending training seminar held in June 2002 at
the Federal Reserve Bank of Dallas.

Audit Universe and Sample

The sample selected was based on the universe of all FDIC-insured banks identified by DSC as
having subprime loan programs. These institutions have subprime loan portfolios that constitute
25 percent or more of Tier 1 Capital. According to the December 2001 DSC Internal
Supervisory Database, there were 128 of these institutions, and the FDIC was the supervisory
agency for 60 of these institutions. We focused our review on 11 FDIC-supervised banks rated
3, 4, and 5. For the 11 banks in the sample, we conducted visits to the regional and field offices,
reviewed examination workpapers, and conducted interviews with Examiners, Case Managers,
and ARDs. 1

Of the 11 institutions in our sample, their areas of concentration in subprime lending were as
follows: 1 was involved in mortgage lending, 2 were involved in credit card lending, 5 were
involved in auto lending, 2 were involved in single family residential (SFR) construction
lending, and 1 was involved in commercial lending (asset-backed lending). The percentage of
subprime loans in the banks' loan portfolios ranged from 15 percent to 90 percent. We also
determined that subprime issues were not the cause of the banks' current problems in three cases.

Use of Computer Processed Data

We used the FDIC's Bank Information Tracking System (BITS) to identify examination dates
and to obtain examination comments. These data were later verified by our onsite reviews of
examination workpapers and reports. We also used the DSC Internal Supervisory Database to
identify background information on subprime banks. The information contained in the database
is sent to the DSC Risk Management and Application Section by the regional offices on a
quarterly basis. We did not conduct a data reliability assessment to verify the accuracy and
completeness of this database. However, because the data are regularly reviewed by DSC, their
use was reasonable for accomplishing our audit objectives.

Management Controls Reviewed

DSC's Regional Office Review Program is organized into three categories: Examination and
Supervision, Management, and Administration. For the most part, the program is structured in a
checklist type format. This format was developed to provide consistency among the reviews of
each region while allowing flexibility in addressing region-specific issues. Each regional office
is subject to internal review once every 2 years. The results of the reviews are used to:
(1) provide feedback to Regional Directors; (2) inform other regions of best practices; (3) serve
as tangible feedback as to the effectiveness of the Division’s policies, practices, and procedures;
and (4) serve as tests of the various control objectives.

1
  We did not visit the field office or review examination workpapers for one bank in our sample because we decided
that a visit to the site would not materially affect our audit results and, thus, would not be cost effective.


                                                        9
The DSC internal review manual has a section entitled Review Procedures: Subprime Lending
and Loan Penetration Review Worksheet. The procedures require the review of: how the
regional offices identify banks with subprime programs, preplanning documents related to the
subprime lending risk assessment for banks, and how results of examinations are presented in the
report of examination. The regional office internal review criteria were revised in May 2002.
The revised requirements add more focus to the subprime loan penetration at both the bank and
regional office level. For the period March 2001 through May 2002, six regional office reviews
were conducted. Based on our review of the Internal Review Report comments, we found that
no material findings or recommendations were made. During that time period, only one regional
office review had been conducted under the new requirements. The review comments address
four of the six required criteria: not addressed were the use of the examination documentation
modules (Ed Modules) 2 and the examination report discussion of the subprime loan sample. For
the five regional office reviews conducted under the 2001 criteria, the reviews generally
addressed the review points. One review did not address the use of examination documentation
modules, and one did not discuss the pre-examination planning related to the subprime loan
portfolio.

Reporting on Government Performance and Results Act

There are no specific Corporation goals that address subprime lending; however, DSC's general
goals regarding managing bank risks and resolution of problem banks would cover banks with
subprime programs. The specific goal "to initiate examinations in accordance with
requirements" is important because subprime loan programs are primarily identified through
onsite examinations. Also the goal of "following up on problem banks in a timely manner" is
relevant to subprime lending because many of the banks involved are on the problem bank list.

The FDIC 2001 Program Performance Report discusses the performance results for the 2001
goals that the FDIC implemented. The report provides detailed analysis and discussion of how
the FDIC accomplished each of its performance goals and objectives for 2001. According to the
report:

-   The target of 100 percent was not met as it relates to the goal of initiating examinations in
    accordance with requirements. During 2001, the FDIC initiated 2,575 safety and soundness
    examinations. However, 67 institutions (2.6 percent) did not have onsite examinations
    initiated in accordance with statutory requirements. Of these 67 examination delinquencies,
    11 institutions were due for an examination by the FDIC and 56 were past due by the state
    authorities under the alternating examination program. Of the 11 institutions due for an
    examination by the FDIC, 4 of the examinations were postponed because the institutions
    were scheduled to merge, convert, or relinquish their charters. The other seven examination
    delinquencies were due to the following reasons:



2
  The ED Modules are examination tools that focus on risk management practices and guide examiners to establish
the appropriate examination scope. The modules incorporate questions and points of consideration into examination
procedures to specifically address a bank's risk management strategies for each of its major business activities.



                                                       10
       -   Two institutions were affected by asset growth or change in capital category, which
           modified the institutions’ examination intervals.
       -   Two institutions were in the process of satisfying the requirements of outstanding
           enforcement actions and requested postponement of their regular examinations.
       -   One institution’s examination was postponed as an accommodation to bank
           management because of a recent information system conversion.
       -   Two institutions were in the process of finalizing financial data (Call Report
           information) after the completion of a recent merger.

    All seven institutions were scheduled for examinations during 2002; six of these institutions
    were scheduled for the first quarter of 2002 and one was scheduled for April 2002.

-   The target of mailing examination reports to FDIC-supervised banks within 90 days of the
    examination start date was met. Examination reports were mailed to banks within an average
    of 54 days of the examination start date.

-   The target of completing follow-up examinations for problem institutions within 12 months
    of completion of the prior examination was met. No problem institutions were delinquent for
    an examination under statutory requirements.

-   The target of processing and mailing FDIC-supervised problem institution examination
    reports to the institution within 45 days of receipt of the report by the Regional Office was
    met. On average, problem institution examination reports were mailed to the institution
    within 44 days of receipt of the report by the Regional Office.

Statutory and Regulatory Criteria

Based on our reviews of federal laws and regulations, we did not identify any that exist for
subprime lending as defined by the FFIEC's Interagency Guidelines for Subprime Lending.
However, during discussions held with DSC management, we found that the federal banking
agencies were proposing changes in the reporting requirements for Call Reports and for the
Home Mortgage Disclosure Act (HMDA) that would require banks to provide information on
activities related to subprime lending. The FFIEC has since withdrawn its proposal to change the
Call Report requirements; however, the changes related to HMDA reporting will be implemented
on January 1, 2004. Appendix V discusses the proposed changes in detail.

Possible Fraud or Illegal Acts

No instances of possible fraud or illegal acts were noted during the audit. DSC pursues or refers
to the appropriate legal authority any suspicious activities identified during examinations.




                                                 11
                                                                                                   APPENDIX II

DSC’S ASSESSMENT, IDENTIFICATION, AND MONITORING OF BANKS WITH
SUBPRIME LENDING PROGRAMS

Assessing Banks’ Management of Risk Associated with Subprime Lending Programs

We reviewed the policies and procedures for examinations of banks with subprime lending
programs and found that they provide examiners with the guidance needed to assess whether
institutions effectively manage the risks associated with subprime lending. Appendix IV
discusses the policies and procedures in detail. The same guidance was issued to bank
management through financial institution letters that spell out the federal bank regulatory
agencies' expectations related to the management of subprime loan programs and the
requirements for calculations of capital and allowances for losses. However, our review found
that some examiners were not always satisfied with the level of detail in the policies related to
capital calculations. During discussions with DSC management, we were informed that the
guidance was structured in a manner that would allow it to be used by all of the federal banking
regulators during their on-site examinations.

Examiners and case managers expressed concern about the lack of detail in the January 2001
FFIEC Expanded Guidance for Evaluating Subprime Lending Programs (Expanded Guidance)1
related to calculating capital reserves for subprime loans. The interagency policy was written in
a broad framework because of the many agencies that must follow it. According to several DSC
examiners, the policy is vague in that it does not provide weights or benchmarks to use when
reviewing the factors to be considered in calculating appropriate capital levels related to the
subprime loan portfolio. Examiners explained that as a result of the lack of this type of language
in the guidance, it is difficult to get bank management's agreement on the examiners’ method for
calculating the required capital levels. There is also concern that the methodology used to
calculate required capital levels during examinations could vary from bank to bank even when
the factors being considered are the same or similar.

According to the Expanded Guidance, each subprime lender is responsible for quantifying the
amount of capital needed to offset the additional risk in subprime lending activities. The analysis
should be tailored to reflect the size, concentration level, and relative risk of the institution's
subprime lending activities and should consider the following elements:

    -    Portfolio growth rates;
    -    Trends in the level and volatility of expected losses;
    -    The level of subprime loan losses incurred over one or more economic downturns, if such
         data/analyses are available;


1
  In January 2001, the FFIEC issued the Expanded Guidance for Evaluating Subprime Lending Programs. This
expanded guidance supplements the guidelines issued in March 1999, refines the definition of subprime lending,
clarifies the agencies' expectations regarding an institution's risk management processes, and provides supervisory
expectations for examinations of subprime lending programs.




                                                         12
   -   The impact of planned underwriting or marketing changes on the credit characteristics of
       the portfolio, including the relative levels of risk of default, loss in the event of default,
       and the level of classified assets;
   -   Any deterioration in the average credit quality over time due to adverse selection or
       retention;
   -   The amount, quality, and liquidity of collateral securing the individual loans;
   -   Any asset, income, or funding source concentrations;
   -   The degree of concentration of subprime credits;
   -   The extent to which current capitalization consists of residual assets or other potentially
       volatile components;
   -   The degree of legal and/or reputation risk associated with the subprime business line(s)
       pursued; and
   -   The amount of capital necessary to support the institution's other risks and activities.

The Expanded Guidance states that because subprime lending poses more risk than standard
lending, it is expected that the starting point for determining capital levels would be at a
minimum one and a half to three times greater than what is appropriate for non-subprime assets
of a similar type. The guidance also states that refinements should be made based on the
particular circumstances of each bank. As a result, the capital ratios should be set well above the
averages for their traditional peer groups or other similarly situated institutions that are not
engaged in subprime lending.

We discussed the matter with DSC Washington and regional level managers who were involved in
developing the guidance. They informed us that they are aware that some examiners feel the policy
is vague; however, the policy was written in that manner to facilitate its use by all of the banking
regulators. Empirical data on FDIC-insured banks was compared to data for unregulated financial
companies in developing the policy. The unregulated companies' "set-asides" for these types of
loans were two to three times higher than what insured institutions were allotting. Basically, the
market was imposing a higher coverage requirement on unregulated financial companies; thus, the
Expanded Guidance calls for higher coverage.

During our review, we determined that DSC has provided training to examiners related to the
Expanded Guidance. The topic is covered in the DSC Commissioned Examiner Training
School, and the FFIEC has published a subprime lending training CD-ROM that can be used by
examiners. We also found that during each DSC Regional Conference over the past 2 years,
subprime presentations were included as breakout sessions or training modules. In addition, the
Expanded Guidance provides the names of subprime lending specialists for each region and
Washington, and encourages examiners and case managers to avail themselves of these
specialists, when necessary. We understand that because the Expanded Guidance is an
interagency effort, it must be sufficiently flexible to be used by each agency involved. We are
also satisfied with the efforts that DSC has made to provide examiners with supplemental
training and to provide subject matter experts to assist examiners during onsite examinations.
The factors used to determine capital requirements for subprime loans must be evaluated
separately and then weighed to come up with a final amount. Because each set of circumstances
will be different, the weights will vary based on the individual bank. Therefore, although
examiners and case managers were concerned about the difficulty of obtaining management



                                                 13
agreement on the method used to determine capital requirements, it appears DSC has taken
adequate steps to address this concern. Accordingly, we have not made a recommendation
regarding this matter.

Identification of Banks Engaged in Subprime Lending

According to DSC personnel, examinations of subprime lending institutions begin the same as
for all safety and soundness examinations, with the examiners risk-scoping the bank’s activities
prior to starting onsite examinations. For the onsite portion of the examinations, examiners are
required to follow the Expanded Guidance for Evaluating Subprime Lending Programs issued on
January 31, 2001. Based on our review of examination workpapers, we determined that
examiners are generally complying with the risk-scoping and examination requirements for
subprime lenders. As a result, DSC has the capability to identify institutions that may have
subprime lending programs prior to onsite examinations and determine the conditions of the
subprime loan portfolios during onsite examinations.

The initial identification of subprime banks is usually done by examiners during the pre-
examination planning and onsite fieldwork for safety and soundness examinations. In
preparation for an examination, examiners are required to perform pre-examination planning to
assess the risk and focus the examination. When conducting pre-examination planning,
examiners review offsite monitoring data, including Call Reports 2 and Uniform Bank
Performance Reports (UBPRs). 3 In addition, as noted in Appendix VI, there are several other
offsite monitoring applications available to examiners for use when conducting offsite risk
analyses.

During our review of examination workpapers for the banks in our sample, we determined that
10 of the 11 banks in our sample had pre-examination planning memorandums that documented
the work that needed to be done to identify potential subprime loans. In 2 of the 11 banks in our
sample, examiners were alerted by offsite monitoring programs that subprime activity was
probably occurring at the banks. In seven instances, examiners identified subprime loans during
onsite examinations, and in one instance the bank had been a subprime lender since the mid-
1990s. We did not review the examination workpapers for the eleventh bank because we
decided that a visit to the site would not materially affect our audit results and, thus, would not
be cost effective.

During onsite examinations, examiners are required to follow the Interagency Guidelines on
Subprime Lending, issued on March 4, 1999, and the Expanded Guidance for Evaluating
Subprime Lending Programs, issued on January 31, 2001. Examiners have the option of using
the Subprime Lending ED module (contained in the DSC Regional Director Memorandum
#00-004) to document the results of their reviews. We found that only four examiners chose to
2
  According to the American Bankers Association’s Banking & Finance Terminology, an institution’s quarterly
Consolidated Report of Condition and Income contains a balance sheet, income statement, and other detailed
financial schedules containing information about the institution.
3
  According to the Uniform Bank Performance Report Users Guide, the UBPR is designed to be used by bank
examiners and bank management evaluating the condition of banks. The report provides the bank's data, data for a
peer group of banks similar in size and economic environment, and percentile rankings.



                                                       14
use the module to document their reviews of subprime lending activities during onsite
examinations. However, based on our reviews of examination workpapers for the banks in our
sample, we determined that the examiners generally completed the required subprime
examination procedures. In all 10 cases, as required by the guidelines:

-   Subprime activities were scoped in the Pre-Examination Planning Memorandum.
-   Internal control reviews were documented.
-   Institutions' strategic/business plans were verified.
-   Subprime lending policies and procedures were identified.
-   Independent reviews of subprime activities were performed and documented.
-   Methodologies for ALLL assessments and calculations reviewed were documented.
-   Management effectiveness was assessed by examiners.
-   Adequacy of communication and information systems was documented.
-   Institutions' efforts to track profitability trends were reviewed and documented.

In 9 of 10 instances:
- Credit risk analysis was documented.
- Transaction testing on subprime portfolios was identified.
- Institutions' methodologies for determining capital to offset the risks taken in subprime
    activities were assessed.
- The adequacy of servicing and collection departments maintained by the institutions was
    documented.

In 8 of 10 instances:
- Offsite monitoring reports were used by examiners to risk scope the examination.
- Stress testing for capital adequacy was documented in examiner workpaper files.

Based on discussions with examiners, we found that in 7 of the 11 banks in the sample,
examiners discovered the banks' subprime loan programs during onsite examinations. In
addition, in six cases the banks were not aware they had subprime loan programs until examiners
pointed them out.

-   In one instance the bank was affected by the implementation of the Interagency Guidelines
    on Subprime Lending, which defines "subprime" and sets acceptable criteria for capital and
    ALLL. As a result of the new policy, the bank's capital levels and ALLL levels were
    considered inadequate, relative to the risk in its subprime portfolio.

-   In four instances, a single bank employee (i.e., the bank President or a loan officer)
    originated all or a significant portion of the subprime loans without the knowledge of bank
    management.

Monitoring the Conditions of Banks' Subprime Lending Programs

Based on our review of DSC and DIR databases and management reports, the FDIC has an
effective program to monitor the condition of FDIC-supervised subprime lenders and to track




                                                15
corrective actions related to subprime activities. In addition to the quarterly monitoring of all
subprime lenders (described below), DSC now monitors subprime credit card banks with more
intensity.

The DSC Internal Supervisory Database is DSC's internal mechanism for tracking banks
engaged in lending activities that inherently pose an increased risk to the institution and thereby
to the deposit insurance funds. The regional offices are required to report quarterly on
institutions with subprime loan programs, institutions that participate in high loan-to-value
(HLTV) 4 lending, institutions with payday lending activities, and institutions heavily involved in
securitized transactions. 5 These data are included in the DSC Internal Supervisory Database as
four separate reports.

Interagency procedures require examiners to identify institutions in which subprime loans
constitute 25 percent or more of Tier 1 Capital. The DSC Internal Supervisory Database reports
are used to track the data related to the subprime portfolios collected during examinations.
Examiners are required to complete a Subprime Data Collection Form, which includes 31
different data fields. In addition, they must prepare written comments that:

-   identify the risk level and trends in lending activity;
-   provide an assessment of management, including loan underwriting and administration
    practices, and of the internal controls regarding these activities; and
-   identify any notable trends in delinquencies, net losses, or examination loan classifications.

The regional offices forward the data to Washington where it is downloaded into a database and
used to develop the DSC Internal Supervisory Database reports.

The Offsite Risk Evaluations of Subprime Lenders Report is another tool that DSC uses to
monitor FDIC-insured subprime lenders. The report includes a combination of results from
several offsite monitoring applications to track and assess the condition of subprime lenders
between examinations. The information is included in the DSC Internal Supervisory Database
reports. If a bank fails three or more of seven monitoring tests, it is flagged in the report. The
monitoring tests and criteria used to develop the report are enumerated in Table 2 below.
Appendix VI describes the offsite monitoring systems used to develop the Offsite Risk
Evaluation Reports in more detail.




4
  The DSC Internal Supervisory Database report instructions state that HLTV loans are typically junior liens on
owner-occupied single-family residences, but there is limited collateral protection because the combined loan
amounts often exceed the value of the home.
5
  The DSC Internal Supervisory Database report instructions state that securitized institutions are those which, as a
significant part of their business, make or purchase loans for sale or securitization and have those loans serviced and
held off-premises by third parties or affiliates. The DSC Capital Markets Examination Handbook defines
securitization as the process where interests in loans, generally mortgages, and other receivables, including credit
cards and automobile loans, are packaged, underwritten, and sold in the form of asset-backed securities. One of the
benefits of the securitization process is that it converts relatively illiquid assets (loans) into readily marketable
securities with reasonably predictable cash flows.



                                                          16
Table 2: Offsite Risk Evaluations

                   APPLICATION                                                  CRITERIA
                                                      1.   A growth percentile ranking of greater than or equal to 90
    Growth Monitoring System (GMS)                         (on a scale of 0 to 99) over the last quarter based on Call
                                                           Report data.

                                                      2.   A 20 percent or more probability of the bank being
                                                           downgraded.
    Statistical CAMELS Offsite Rating (SCOR)
                                                      3.   A drop in asset quality.
                                                      4.   Consistent growth in the bank.

                                                      5.   A forecasted CAMEL rating of greater than "3" based on a
    Real Estate Stress Test (REST)
                                                           3 to 5-year horizon.

                                                      6.   Failed 1 of 3 RRPS screens for the current DIR semiannual
    Risk-Related Premium System (RRPS)
                                                           assessment period.

    De novo Bank Status 6                             7.   Bank is less than 7 years old.
Source: DSC Offsite Risk Evaluations of Subprime Lenders Report

In an attempt to identify additional sources of information related to subprime lending programs
at FDIC-insured institutions, the regulators proposed changes to Call Report and Home
Mortgage Disclosure Act (HMDA) reporting requirements. On May 31, 2000, the federal
banking agencies published a notice for comment regarding the inclusion of additional reporting
items in the Call Reports for subprime lending activities. However, on December 9, 2002, the
FFIEC voted to drop the proposal due to responses from the industry and Congress. As a result,
the regulators will have to rely more heavily on the onsite reviews conducted during safety and
soundness examinations. In addition, on February 15, 2002, the Federal Reserve Board issued a
final rule amending the reporting requirements for HMDA that would make more lenders subject
to the HMDA reporting requirements. The effective date for implementation of the changes is
January 1, 2004. Appendix V discusses these issues in detail.




6
    Barron's Dictionary of Banking Terms defines a de novo institution as a newly chartered bank.


                                                           17
Implementation of Corrective Actions to Address Subprime Lending Issues

During our audit, we obtained copies of corrective actions 7 related to the sample banks' subprime
lending activities from the regional office correspondence files. The effective dates of the
corrective actions ranged from March 2000 through July 2002. In all cases, a Bank Board
Resolution (BBR), Memorandum of Understanding (MOU), Cease and Desist Order (C&D), or
Prompt Corrective Action Capital Plan was put in place, or an existing action was modified to
address the subprime lending issues. Where applicable, the actions required bank management
to take steps to improve risk management programs and to increase capital and ALLL. For the
sample, there were six C&Ds, four MOUs, and one BBR in place. In addition, in all cases where
corrective actions were implemented, DSC required progress reports, and/or conducted
visitations to monitor the status of the bank.

In 9 of the 11 institutions in the sample, examiners noted improvements since the corrective
actions were put in place. In two instances, examiners told us that the banks were not improving
and were considered failure candidates; however, for one of the banks, the potential failure was
not the result of the subprime loan portfolio.

We tracked the time between the start of the examination that identified the subprime-related
problem and the implementation of corrective actions. We found that the time frames ranged
from 2 to 10 months. Three of the 11 banks had time frames that exceeded 6 months (8, 9, and
10 months). For these three banks, we found that the FDIC and state banking regulators took
steps to increase offsite monitoring or initiated onsite visits to mitigate any additional risk in the
interim period between the examinations and implementation of corrective action.

In addition, 9 of the 11 institutions have since ceased subprime lending activity, either because of
the corrective actions in place or because management was not aware that they were making
subprime loans and was not willing or capable to service and collect on the loans. In six of the
eight instances, the institutions are seeking to be either sold, acquired, or merged.




7
  The DSC Formal and Informal Actions Procedure Manual states that the FDIC generally initiates formal or
informal corrective action against institutions with a composite safety and soundness or compliance rating of "3",
"4", or "5", unless specific circumstances warrant otherwise. Formal action is generally initiated against an
institution with a composite rating of "4" or "5" for safety and soundness or compliance if there is evidence of
unsafe or unsound practices and/or conditions, or concern over a high volume or severity of violations at the
institution. The FDIC may initiate informal action when a financial institution is found to be in a marginally
unsatisfactory condition or when action is needed to address specific concerns. Informal action is generally
appropriate for institutions that receive a composite rating of "3" for safety and soundness. This rating indicates the
institution has weaknesses that, if left uncorrected, could cause the institution’s condition to deteriorate.

The FDIC may issue formal actions pursuant to Section 8 of the Federal Deposit Insurance (FDI) Act (12 U.S.C.
§1818). These include termination of federal deposit insurance; cease-and-desist action; removal, prohibition, and
suspension actions; and civil money penalties. Additionally, Section 38 of the FDI Act (12 U.S.C. §1831o)
authorizes the FDIC to issue prompt corrective action directives to undercapitalized institutions. Informal actions
such as Bank Board Resolutions and Memorandums of Understanding are voluntary commitments made by the
board of directors of a financial institution. They are neither publicly disclosed nor legally enforceable.


                                                          18
                                                                                          APPENDIX III

REVIEWS OF CUSTOM CREDIT SCORING MODELS

The FFIEC Expanded Guidance may not provide enough detail to guide examiners through
reviews of the custom credit scoring models used by banks to predict the creditworthiness of
borrowers. Although the use of custom models is not common among FDIC-supervised banks,
those institutions that use them run the risk of making credit underwriting decisions based on
results that may not be predictive of the borrowers' actual creditworthiness.

In May 1997 DSC developed the Credit Card Specialty Bank Examination Guidelines Manual to
provide examiners with examination techniques for those institutions involved primarily in credit
card operations. A credit card specialty bank is defined as any bank whose total loans exceed
50 percent of total managed assets and whose credit card loans exceed 50 percent of total loans
and credit card receivables securitized and sold. The section of the manual that specifically
addresses custom credit scoring systems provides definitions of terms related to credit scoring
systems, explains the characteristics of the different types of scoring models, and provides a
summary of examination goals. The summary of examination goals includes the following:

    -   Identify the types of scoring systems used by management.

    -   Determine how management uses the scores in making credit decisions.

    -   Examine credit cutoff points and odds charts to assess the level of risk that management
        is taking.

    -   Verify periodic validation and calibration procedures, review the results of the
        procedures, and assess the strength of the credit scoring system.

    -   Evaluate whether credit bureau, behavioral, and other scores enhance account
        management programs.

    -   Determine whether collection scores are used and assess their contribution to the
        collection process.

    -   Review the number of overrides. 8

    -   Verify whether management reviews override reports and whether their performance is
        adequately tracked.

    -   Determine whether overrides have a material adverse effect on asset quality.




8
 The DSC Credit Card Specialty Bank Examination Guidelines Manual defines an override as a decision made by
bank management on an applicant that is contrary to the decision made by the credit scoring system.


                                                     19
As noted above, these procedures were specifically designed for examinations of credit card
specialty banks and were not specifically geared towards examinations of institutions with
subprime loan programs.

The more current requirements for reviews of custom credit scoring models are contained in the
DSC Regional Directors Memorandum (RD Memo) 00-004, dated January 24, 2000, entitled
Subprime Lending Examination Procedures. The RD Memo contains the Examination
Documentation Module (ED Module) 9 developed for subprime lending that may be used at
examinations of institutions that conduct subprime lending activities. The use of ED Modules
during safety and soundness examinations is optional. According to the ED Module, during
onsite subprime lender examinations, examiners should:

    -    Determine whether models are custom or vendor-supplied and what they are being used
         for (e.g., approvals, pricing, loss estimates, collections).

    -    Determine whether the custom model development process is consistent with the bank’s
         risk appetite and desired level of subprime loans.

    -    Review the documentation supporting the institution’s scoring models and determine
         whether:

                  • Models are empirically derived and statistically sound.

                  • Scoring is based upon a developmental population that captures the
                    behavioral and credit characteristics of the subprime population targeted for
                    the products offered.

                  • Assumptions and customer characteristics are reviewed frequently and
                    updated to effectively predict credit performance.

                  • Credit scores permit the institution to predict overall risk and the potential
                    impact on collection activities.

                  • Models consider delinquencies and losses over varying economic
                    conditions.

         -   Evaluate the ongoing monitoring and maintenance process in view of the portfolio’s
             performance and determine whether:

                  • Models are actively monitored, adjusted, and periodically revalidated.

9
  The ED Modules are examination tools that focus on risk management practices and guide examiners to establish
the appropriate examination scope. The modules incorporate questions and points of consideration into examination
procedures to specifically address a bank's risk management strategies for each of its major business activities. The
modules direct examiners to consider areas of potential risk and associated risk control practices, thereby facilitating
a more effective supervisory program. The modules have been incorporated into a software package called
Examination Documentation to provide an easy workpaper creation tool.



                                                          20
                  • Systems continue to reflect current underwriting standards and risk
                    parameters.

                  • Management maintains an adequate portfolio chronology log to record
                    significant events related to the credit acquisition process for each subprime
                    portfolio.

                  • Scoring systems are supervised and maintained in accordance with vendor-
                    provided specifications and recommendations.

                  • Models are adjusted to account for unexpected events.

While each of the 12 elements of criteria listed above is important, guidance is not provided on
how models should be monitored, adjusted, or validated. These steps are critical to ensuring the
model is reasonably reliable and could include, for example, comparing the results of
institutional credit scoring to other indices such as the Fair, Isaac and Company (FICO)10 credit
bureau scores in order to assess the validity of the model. Another example is that the guidance
requires examiners to determine whether credit scoring is based upon a developmental
population that captures the behavioral and credit characteristics of the subprime population
targeted for the products offered; however, it does not provide instructions as to how to
determine what the appropriate behavioral and credit characteristics should be for the borrowers
targeted.

DSC management informed us that FDIC-supervised banks do not often use custom credit
scoring models. According to DSC, although examiners are encountering more banks with
custom models, banks usually rely on the FICO scores provided by credit bureaus or on a
behavioral model that is similar to FICO. During the audit, we determined that only 1 of the 11
sample banks used a custom credit scoring model. The remaining banks in the sample relied on
the FICO credit rating scores provided by the credit bureaus.

For the one bank in our sample that used a custom credit scoring model, we reviewed the
workpapers and the examination report to determine the extent of examination procedures
applied. 11 While we found documentation in the workpapers that DSC reviewed the bank's
custom scoring model, we found that only 2 of the 12 criterion required by the Subprime
Lending ED Module were discussed. Those criterion related to determining whether the model
was custom made or vendor-supplied and what it was being used for, and whether scoring was
based upon a developmental population that captured the behavioral and credit characteristics of
the subprime population targeted for the products offered.

According to the FDIC Third Quarter 2002 Regional Outlook, the stress in the consumer sector
could particularly challenge subprime and concentrated consumer lenders. Some of these

10
   FICO is the Fair, Isaac and Company credit score developed to predict the creditworthiness of credit applicants
using a statistical model. According to the Fair, Isaac and Company booklet entitled Understanding Your Credit
Score, credit scoring estimates the repayment probability based on the information in the credit application and a
credit bureau report.
11
   We did not discuss the review of the custom credit scoring model with the Examiner-in-Charge.


                                                         21
lenders have not experienced subprime lending through a full economic cycle. Without constant
monitoring and testing, banks run the risk of relying on models that project results that are out of
line with the actual performance of borrowers. In addition, if custom credit scoring models do
not identify the additional default risk associated with subprime borrowers, banks cannot ensure
that they are pricing the subprime loan products appropriately. Consequently, the custom credit
scoring models used by banks should be thoroughly evaluated to ensure that the results they
provide are useful in assessing the risk presented by subprime borrowers. Without adequate
examination coverage of these models, the FDIC cannot ensure that those institutions that use
custom credit scoring models are making sound credit underwriting decisions related to their
subprime loan portfolios and properly determining loan loss allowances and capital levels.

The Expanded Guidance provides the names of subprime lending specialists for each region and
Washington, and encourages examiners and case managers to avail themselves of these
specialists, when necessary. To strengthen examination coverage of custom credit scoring
models, DSC could advise examiners to obtain concurrence from an appropriate subprime
lending specialist on the scope and results of examination procedures for the assessment of
custom credit scoring models used by banks for subprime loan programs.




                                                 22
                                                                                    APPENDIX IV

SUBPRIME LENDING POLICIES AND PROCEDURES

In response to industry and consumer queries, the federal bank regulators have defined
characteristics that are attributable to subprime borrowers and lenders and have identified the
concerns that center on subprime credit card banks.

"Subprime lenders" are institutions that systematically target the subprime market through
lending programs that employ tailored marketing, underwriting standards, and risk selection.

The term “subprime program” refers to the process of acquiring, on a regular or targeted basis
either through origination or purchase, subprime loans to be held in the institution’s portfolio or
accumulated and packaged for sale. Subprime lending programs may also target borrowers with
questionable repayment capacity evidenced by low credit scores or high debt-burden ratios.
Subprime lending does not refer to individual subprime loans originated and managed in the
ordinary course of business as exceptions to prime risk selection standards.

The federal banking agencies have defined "subprime borrowers" using the characteristics that
are most often associated with these borrowers. The term “subprime” refers to borrowers that
typically have weakened credit histories that include payment delinquencies, previous charge-
offs, judgments, bankruptcies, foreclosures, repossessions, high default probability, and poor
debt-to-service ratios. While some of these attributes are not always indicative of a subprime
borrower, taken as a whole they generally represent potential troubled or problem borrowers.

The federal banking agencies have also taken measures to ensure that financial institutions
address the increased risks associated with subprime lending through the issuance of guidance
and policy statements. The following procedures and guidelines have been issued.

Interagency Guidelines on Subprime Lending (FIL-20-99)

In March 1999, the FFIEC issued Interagency Guidelines on Subprime Lending that defined
subprime lending as extending credit to borrowers who exhibit characteristics indicating a
significantly higher risk of default than traditional bank lending customers. Regulators were
required to review and evaluate the capital levels at examinations and through offsite monitoring
techniques. In addition, the guidance states that measures can be implemented and enforced if
the capital levels are deemed to be inadequate. Specifically, the guidance stresses the need for
banks' risk management programs to address loan pricing and requires the following for risk
management programs:

-   Planning and strategy should be consistent with overall business strategy of the bank;

-   Staff expertise requires specialized skills and knowledge;

-   Lending policy should establish the framework for pricing decisions and profitability analysis;
    and



                                                 23
-   Management should conduct reviews of credit scoring, pricing, and the adequacy of the ALLL
    models.

Expanded Guidance for Evaluating Subprime Lending Programs (RD Memo 01-005)

In January 2001, the FFIEC issued Expanded Guidance for Evaluating Subprime Lending
Programs. This Expanded Guidance supplements the guidelines issued in March 1999 and is
specifically tailored to institutions that have subprime lending programs with an aggregate credit
exposure greater than or equal to 25 percent of Tier 1 Capital. In addition, the Expanded
Guidance refines the definition of subprime lending, clarifies the agencies' expectations
regarding an institution's risk management processes, and provides a more detailed discussion of
the supervisory expectations for examinations of subprime lending programs. The guidance also
provides additional risk factors and examination procedures to consider in the following areas:

       -   Allowance for Loan and Lease Losses (ALLL);
       -   Capital Adequacy;
       -   Portfolio Review and Analysis;
       -   Classification Guidelines;
       -   Cure Programs; and
       -   Predatory or Abusive Lending Practices.

To address risk management expectations, the guidance states that management’s ability should
be judged by the quality of the risk management and control processes in place, and the extent to
which management is adhering to those processes. When a primary supervisor determines that
an institution’s risk management practices are materially deficient, the supervisor may instruct
the institution to discontinue its subprime lending programs.

For ALLL, the guidance states that classified loans are considered loans that are not adequately
protected by the sound worth and repayment capacity of the borrower or the pledged collateral.
Full liquidation of the debt may be in jeopardy. The ALLL covering subprime loans that are not
classified should be sufficient to absorb estimated losses on outstanding balances over the
current operating cycle, which is typically 12 months. The board and management are
responsible for determining the adequacy of the ALLL and documenting the methodology that
determines the balance of the ALLL.

For capital, the policy states that each subprime lender is responsible for quantifying the amount of
capital needed to offset the additional risk in subprime lending activities. Such lenders are also
responsible for documenting the methodology and analysis supporting the specified level of capital.
The methodology should be tailored to reflect the size, concentration, and risk posed to the
institution by the subprime lending activities. The guidance lists several potential factors to be
considered when determining the appropriate amount of capital and states that since subprime
lending possesses more risk than standard lending, it is expected that the capital levels would be at a
minimum one and a half to three times greater than what is appropriate for non prime assets of a
similar type. The capital adequacy analysis should also include stress testing as a tool for estimating
unexpected losses in subprime lending pools. Shock tests of basic assumptions will assist in
determining a portfolio’s susceptibility to changes in market and business conditions.



                                                  24
Examination Documentation (ED) Module for Subprime Lending (RD Memo 00-004)

This memorandum contains the ED module developed for subprime lending to be used at
examinations of institutions that conduct subprime lending activities. Topics in the ED module
include the following items:

-   Preliminary review, policy considerations, internal controls, audit or independent reviews,
    information and communication systems;

-   Portfolio analysis, allowance for loan and lease losses, servicing and collections, scoring models,
    profitability, and capitalization; and

-   Third parties, securitizations, managerial effectiveness, transaction-level testing, portfolio
    quality, and stress testing of capital adequacy.

Under each section, detail is provided as to the type of work that should be performed in order to
achieve a level of confidence that the bank is either administering the program effectively or not.

Credit Card Specialty Bank Examination Guidelines

This guide was issued in May 1997 to aid DSC examiners in the proper evaluation techniques for
institutions with credit card portfolios. Credit card specialty banks have unique characteristics.
According to DSC, this guide is to be used in conjunction with the guidance pertaining to
subprime lending.

FFIEC Credit Card Account Management and Loss Allowance Guidance

On January 8, 2003, the FFIEC issued interagency guidance for account management and loss
allowances for credit card lending. According to the guidelines, recent examinations of
institutions engaging in credit card lending have disclosed a wide variety of account
management, risk management, and loss allowance practices, a number of which were deemed
inappropriate. As of March 31, 2002, there were 5 FDIC-supervised institutions that were
heavily involved in subprime credit card receivables.

Federal regulators issued the guidelines to more tightly monitor specialty credit card lenders,
especially those that have increased their subprime lending business. The rules require
companies to more carefully monitor how much credit to extend to customers with too much
debt, be more consistent in the way they declare loans worthless, and maintain stronger reserves
against bad loans and customer fees. The guidelines are aimed at the large specialty credit card
companies whose business is issuing credit and who can incur significant losses when customers
default.

The guidance applies to all institutions under the member agencies' supervision that offer credit
card programs. It describes the expectations for prudent risk management practices for credit
card activities, particularly with regard to credit line management, over-limit practices, and
workout and forbearance practices. The guidance also specifically addresses income recognition



                                                   25
and loss allowance practices for credit card lending and states that recent examinations of credit
card lenders have revealed a variety of income recognition and loss allowance practices. Such
practices have resulted in inconsistent estimates of incurred losses and, accordingly, the
inconsistent reporting of loss allowances. To address the account management, risk
management, and loss allowance practices for credit card lending, the guidance provides
procedures for:

-   Credit Line Management;
-   Over-limit Practices;
-   Minimum Payment and Negative Amortization;
-   Workout and Forbearance Practices;
-   Income Recognition and Loss Allowance Practices; and
-   Policy Expectations.

ED Modules for Credit Card Lending

There are two ED modules that address credit card activities. The first one addresses merchant
credit card lending. It provides the core and expanded analysis procedures to be conducted in the
course of an examination. The impact analysis is also included in the module. The second
module addresses consumer credit card activities and is to be applied to institutions that
specialize in credit cards and to those institutions where credit card receivables are not the
primary business focus. Both sections focus on the examination procedures outlined in the credit
card specialty examination guidelines.

The analyses prescribed in the ED modules apply to merchant credit card activities and credit
card activities in general. Specific details concerning all aspects of credit card lending are
contained in the supplemental guidelines for credit card specialty examinations.




                                                26
                                                                                              APPENDIX V

LAWS AND REGULATIONS RELATED TO SUBPRIME LENDING

There are no federal laws, rules, or regulations concerning subprime lending, defined by the
FFIEC Interagency Guidelines as follows: "extending credit to borrowers who exhibit
characteristics indicating a significantly higher risk of default than traditional bank lending
customers." However, the agencies proposed the following reporting requirements that would
require banks to provide information on activities related to subprime lending.

Call Report Requirements

On May 31, 2000, the federal banking agencies published a notice for comment in the Federal
Register regarding the inclusion of additional reporting items in the Call Reports for subprime
lending activities. 1 One of the major stumbling blocks for those who provided comments was
the failure of the agencies to provide a definition for “subprime” upon which they could all
agree.

On July 12, 2002, the agencies published in the Federal Register a Proposed Agency Information
Collection Activities; Comment Request. The public comment deadline was September 10,
2002. Under the proposal, all banks that have subprime consumer loan programs would have to
report the total amount of consumer loans in those programs. Those banks with significant
programs, defined as programs that make up at least 25 percent of their Tier 1 Capital, would
have to supply more detailed data on their subprime loans. Draft Call Report Schedule RC-XX,
entitled Consumer Loans in Subprime Lending Programs, would require banks to report the
following information related to their consumer loans in subprime lending programs:

      -   total amount of consumer loans;
      -   outstanding balances of consumer loans;
      -   past due and nonaccrual consumer loans; and
      -   charge-offs and recoveries of consumer loans.

However, the industry was concerned because there are no standard industry-wide approaches to
defining subprime and subprime programs. According to the proposal, the information would
enable the agencies to better plan their examinations of banking institutions and to monitor
offsite the extent of, changes in, and performance of subprime lending programs of banking
institutions.

On January 7, 2003, the FFIEC announced that they had dropped the proposal to require that
subprime lending data be included in Call Reports. As a result, the regulators will have to rely
more on the subprime lending reviews conducted during onsite examinations.




1
    The notice was published on Wednesday May 31, 2000, in Federal Register Volume 65, pages 34801 - 34819.


                                                       27
Home Mortgage Disclosure Act (HMDA)

The Federal Reserve Board issued a final rule amending the reporting requirements under
Regulation C, which implements HMDA. 2 The changes were intended to make more lenders
subject to the HMDA reporting requirements and to obtain better data for the federal banking
agencies to use to combat predatory lending. Under the current regulations, non-depository
lenders are subject to HMDA based on the percentage of mortgage loans they originate. The
Federal Reserve anticipates that this additional requirement will capture 98 percent of first lien
subprime mortgages and 95 percent of second lien subprime mortgages.

The requirements in the final rule should provide additional assistance to the federal regulators in
determining which financial institutions as well as non-depository lenders are engaged in
subprime lending activities. It should also provide information pertaining to the extent of the
subprime lending activities undertaken by these lenders. On May 2, 2002, the Federal Reserve
released a press notice that extends the effective date for the implementation of the changes to
Regulation C to January 1, 2004.




2
    The final rule was published on Friday, February 15, 2002, in Federal Register Volume 67, pages 7222 - 7251.


                                                          28
                                                                                   APPENDIX VI

OFFSITE MONITORING PROGRAMS

The Offsite Risk Evaluations of Subprime Lenders Report uses a combination of several offsite
monitoring programs to flag banks possibly involved in subprime lending activities. The
following are descriptions of those programs:

       The Growth Monitoring System (GMS) is an offsite rating tool that identifies institutions
       that have grown rapidly and/or have a funding structure highly dependent on non-core
       funding sources. GMS focuses on the relationship between loan growth and non-core
       funding sources. Rapid growth is an indicator of institutions experiencing significant
       changes in their financial statements. GMS focuses on identifying institutions that, due
       to a rapid change, may require increased monitoring. GMS calculates the growth
       percentile ranking for all institutions, including thrifts.

       The Statistical CAMELS Offsite Rating (SCOR) uses Call Report data to identify
       institutions likely to receive a CAMELS downgrade at the next examination. SCOR uses
       statistical techniques to estimate the relationship between Call Report data and
       examination results. The system uses the correlation of financial data and examination
       data to rate all CAEL components (capital, assets, equity, and liquidity), including
       Sensitivity to Market Risk and Management. SCOR rates banks on a scale of 1 to 5 and
       produces a probability of downgrade percentage for each component and composite
       rating. The ratings are based on 13 independent ratios.

       The Real Estate Stress Test (REST) is used to measure exposure to real estate risk. DIR
       has been conducting stress testing of subprime and other consumer lenders to evaluate
       their vulnerability to higher credit losses and slower loan growth. These tests are
       designed not so much to identify specific problem institutions but to develop an upper-
       bound estimate of FDIC insurance losses over the coming year. The model was
       developed based on an analysis of the real estate crisis in New England in the early
       1990s, to determine what exposures led to the downturn. The model attempts to simulate
       what would happen to banks today if they encountered a real estate crisis similar to that
       of New England. The REST model uses Call Report data to forecast a financial
       institution's condition over a 3- to 5-year period and scores the institutions on the
       CAMELS scale of 1 to 5.

       The Risk-Related Premium System (RRPS) assigns each insured institution to one of
       three capital groups and to one of three supervisory subgroups for the purposes of
       determining an assessment risk classification. Call Report data and Thrift Financial
       Reports are used. The model identifies institutions with atypically high-risk profiles
       among those in the best-rated category, to determine whether there are unresolved
       supervisory concerns regarding the risk-management practices of these institutions.

       The Stress Analysis Model (SAM) is used to gauge risk associated with subprime lending
       practices. DIR conducts a stress test to flag institutions that, in the absence of abnormally



                                                29
high loan returns, would be unable to survive. The Mild Stress Scenario, which is used
for subprime institutions, is more responsive to nonperforming loans and is likely to flag
institutions with high nonperforming loans. This scenario assumes that an institution will
experience a reduction in the return on loans when the rate of return on assets exceeds the
prime interest rate by a specific number of percentage points.




                                        30
                            APPENDIX VII

CORPORATION COMMENTS




                       31
